Case: 19-3340

Document: 5-1

Filed: 05/09/2019

Page: 1

No. 19-3340

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

DR. BELLUR G. SHIVA PRASAD,
Plaintiff-Appellant,
v.
GENERAL ELECTRIC COMPANY, et al.,
Defendants-Appellees.

(1 of 3)

)
)
)
)
)
)
)
)
)
)

May 09, 2019
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, GIBBONS, and WHITE, Circuit Judges.
“Every federal appellate court has a special obligation to satisfy itself ... of its own
jurisdiction .. ..” Alston v. Advanced Brands & Importing Co., 494 F.3d 562, 564 (6th Cir. 2007)
(quoting Steel Co. v. Citizens for a Better Env 7, 523 U.S. 83, 95 (1998)). Generally, in a civil
case where the United States, a United States agency, or a United States officer or employee is not
a party, a notice of appeal must be filed within thirty days after the judgment or order appealed
from is entered. 28 U.S.C. § 2107(a); Fed. R. App. P. 4(a)(1)(A).
On March 6, 2019, the district court entered a judgment for the defendants on Dr. Bellur
G. Shiva Prasad’s retaliation claim brought under Title VII of the Civil Rights Act of 1964, 42
U.S.C. § 2000e-2(a)(l). Any notice of appeal was due to be filed on or before April 5, 2019. The
notice of appeal filed in the district court on April 15, 2019, is late.
In the notice of appeal, Dr. Prasad asserts that he was in India and that, “[although he was
watching the Pacer website reasonably frequently, he came to know about the Judgment on the
Summary Judgment Motion on 3/29/19 from the Pacer website.” He states that he “returned to
Ohio on 4/11/19 and hence is submitting this notice concerning his decision to file an appeal in
the US 6th Circuit Court at Cincinnati.” He asks this court to “condone any delay for filing this

Case: 19-3340

Document: 5-1

Filed: 05/09/2019

Page: 2

No. 19-3340

-2notice, if any.” The time for filing a notice of appeal runs from entry of the judgment or order, not
receipt of the judgment or order. See Fed. R. App. P. 4(a)(1); see also Gnesys, Inc, v. Greene, 437
F.3d 482, 485 (6th Cir. 2005); Reidv. White Motor Corp., 886 F.2d 1462, 1465 (6th Cir. 1989).
Both 28 U.S.C. § 2107(c) and Federal Rule of Appellate Procedure 4(a)(6) allow an
appellant to move to reopen the time to file an appeal if the appellant did not receive timely notice
of the entry of the order or judgment from which he appeals. The district court may reopen the
time to file an appeal if the following conditions are satisfied: (1) the appellant did not receive
notice of the entry of judgment within 21 days after its entry; (2) the appellant files a motion for
extended time within 180 days after the judgment or order is entered or within 14 days after
receiving notice, whichever is earlier; and (3) no party would be prejudiced by an extension of
time. 28 U.S.C. § 2107(c); Fed. R. App. P. 4(a)(6). This “option[] for extending the time to file
an appeal require[s] a ‘motion’ in which the losing party asks the district court for more time.”
Martin v. Sullivan, 876 F.3d 235, 237 (6th Cir. 2017). Dr. Prasad did not file a motion with the
district court, which means that the district court has not reopened the time to file an appeal. We
are “without power to construe a notice of appeal as a motion to reopen the time to file an appeal”
and thus lack jurisdiction. Id.
For the reasons set forth above, we DISMISS the appeal for lack of jurisdiction.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(2 of 3)

Case: 19-3340

Document: 7-2

Filed: 08/26/2019

Page: 1

Case No. 19-3340
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
DR. BELLUR G. SHIVA PRASAD
Plaintiff - Appellant
v.
GENERAL ELECTRIC COMPANY; GENERAL ELECTRIC AVIATION
Defendants - Appellees

BEFORE: SUHRHEINRICH, GIBBONS, and WHITE, Circuit Judges;
Upon consideration of the petition for rehearing filed by the Appellant,
It is ORDERED that the petition for rehearing be, and it hereby is, DENIED.

ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

Issued: August 26, 2019

(2 of 2)

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 1 of 12 PAGEID #: 959

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION

DR. BELLUR G. SHIVA PRASAD,
Plaintiff,
Civil Action 2:13-cv-272
JUDGE ALGENON L. MARBLEY
Magistrate Judge Vascura

v.

GE AVIATION, et al.,
Defendants.

OPINION AND ORDER
This matter is before the Court on Defendant's Motion for Summary
judgment, ECF No. 43,1 plaintiff's memorandum contra, Rebuttal to
Summary Judgment Motion, ECF No. 46 (hereinafter "Memo, in Opp."),
Defendant's Reply Memorandum in Support of Its Motion for Summary
Judgment, ECF No. 49 (hereinafter "Reply"), and plaintiff's surreply,
Rebuttal to Defendants' Reply Memorandum in Support of Summary
Judgment Motion, ECF No. 52 (hereinafter "Surreply"). For the reasons
that follow, Defendant's Motion for Summary judgment is GRANTED.
Procedural History
Plaintiff Bellur G. Shiva Prasad, Ph.D., was employed by GE for
approximately four (4) months in 2012, assigned to work on the
analytical modeling of air and fluid flow through jet engines as a
senior staff engineer/technologist. Following the termination of his

i

Plaintiff names as defendants not only General Electric Company but
General Electric Aviation, which is identified as a business unit of
Electric Company and not a separate legal entity. Amended Complaint,
4, SI 2; Defendant's Motion for Summary Judgment, ECF No. 43, PagelD#
Court will refer to defendants collectively as "GE."

1

also
General
ECF No.
244. The

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 2 of 12 PAG El D #: 960

employment, he initiated this action without the assistance of
counsel, asserting claims under "Title VII of the Civil Rights Act of
1964 including ADEA and retaliation and the Ohio Law," as well as a
state law claim of wrongful termination in violation of public policy.
Complaint, ECF No. 2, PagelD# 3. Counsel thereafter entered an
appearance on behalf of plaintiff, Notice of Appearance, ECF No. 3,
and filed an Amended Complaint, ECF No. 4.2 The Amended Complaint
invokes only Ohio's public policy and "Title VII of the Civil Rights
Act of 1964 as amended,'42 U.S.C. § 2000e-3 and Ohio R. C.
4112.02(1)," id., at PagelD# 11, and asserts a claim of wrongful
termination in violation of Ohio Public Policy, id. at 1 14 (Count
One), and retaliation "for making a Civil Rights violation complaint
to the EEOC/Ohio Civil Rights Commission.. .
VII of the Civil Rights Act of 1964 /

r

. in violation of Title

42 U.S.C. § 2000e-3, and Ohio

R.C. 4112.02(1)," id. at 1 15 (Count Two). The Amended Complaint
specifically alleges that plaintiff's employment was terminated
in retaliation for his making complaints to Defendant about
jet engine design problems involving fuel detection sensors
and engine safety, complaining about intoxicated co­
workers, complaining about the adverse way he was being
treated and disrespected in the office in violation of Ohio
public policy which does not permit an employer to
terminate an at-will employee like the Plaintiff for making
complaints to it about jet engine safety, workplace
hazards, and co-worker intoxication, discrimination, and
making reports to the FAA and the EEOC/Ohio Civil Rights
Commission.
Id. at 1 9.
GE moved to compel arbitration of the state law claims, pursuant
to the parties' arbitration agreement, and to stay proceedings on the

2 Neither the original Complaint nor the Amended Complaint was verified.

2

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 3 of 12 PAG El D #: 961

Title VII claim pending resolution of the state law claims in
arbitration. Motion to Compel Arbitration and Stay Proceedings, ECF
No. 7. The Court granted that motion, but also noted that plaintiff's
claims of retaliation under federal and state law were co-extensive:
All three of Plaintiff's claims pertain to the termination
of Defendant's employment. In an attempt to prove his Ohio
Civil Rights claim, Plaintiff will be presenting the same
facts as he would in his Title VII proceedings, since both
causes of action are identical. Plaintiff's claims are not
separate and distinct, but revolve around whether Defendant
retaliated against Plaintiff.
Amended Opinion & Order, ECF No. 14, PagelD# 116 (citation omitted).
In the arbitration proceedings, where he was represented by yet
different counsel, plaintiff objected to the arbitration of the state
retaliation claim on the ground that resolution of that claim by the
arbitrator would effectively also resolve the federal retaliation
claim, which had been reserved for resolution by this Court. Excerpts
from Plaintiff's Arbitration Closing Brief, ECF No. 43-3, PagelD# 38384. The arbitrator agreed and declined to consider plaintiff's state
law retaliation claim.
The Court has found that the law governing a Title VII
proceeding is the same as a retaliation claim under OCRC.
It found that the same facts would be presented in both
claims. Notwithstanding the Court's decision stating that
the OCRC retaliation claim is arbitrable, together with the
state claim based on wrongful termination in violation of
public policy, the OCRC claim should, based upon both
parties' positions before me, be decided and resolved by
the Court with the Title VII claim upon the same facts,
proof and law. Accordingly, the Claimant's state law based
claim that .he was terminated from his employment in
retaliation for his bringing an OCRC age discrimination
complaint will not be addressed, considered and resolved in
this proceeding.
Arbitrator's Decision, ECF No. 43-4, PagelD# 386-87. The arbitrator
ultimately concluded that plaintiff had not established his claim that

3

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 4 of 12 PAG El D #: 962

his employment was wrongfully terminated in violation of Ohio's public
policy. Id. at PagelD# 394. The Court thereafter granted plaintiff's
motion to lift the stay "so that the parties may proceed to resolve
the remaining claim." Order, EOF No. 31. Some months later,
plaintiff's counsel was granted leave to withdraw, Order, EOF No. 41,
and plaintiff has been proceeding without the assistance of counsel
since that time. Following the conclusion of the discovery period, GE
filed the motion for summary judgment.
Standards
1. Summary Judgment
The

standard for

summary judgment

is

found in Rule

56

of

the

Federal Rules of Civil Procedure, which provides in pertinent part:
The court shall grant summary judgment if the movant shows
that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of law.
Fed.

R.

Civ.

P.

In making this determination,

56(a).

the evidence

must be viewed in the light most favorable to the non-moving party.
Adickes v. S.H. Kress & Co., 398 U.S. 144

Summary judgment is

(1970) .

not warranted if the dispute about a material fact is genuine,
is,

if the

evidence

is

such that a reasonable

verdict for the non moving party."
477 U.S. 242, 243

Anderson v.

"that

jury could return
Liberty Lobby,

a

Inc. ,

However, summary judgment is appropriate if

(1986) .

the opposing party fails to make a showing sufficient to establish the
existence of an element essential to that party's case and on which
that party will bear the burden of proof at trial.
Catrett, 477 U.S. 317,
of

evidence

in

322

support

of

(1986).
the

Celotex Corp.

v.

The mere existence of a scintilla
opposing

4

party's

position

will

be

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 5 of 12 PAGEID #: 963

insufficient;

there

must

be

evidence

on

jury

the

which

could

Anderson, All U.S. at 251.

reasonably find for the opposing party.

The party moving for summary judgment always bears the initial
responsibility of informing the district court of the basis

for its

motion and identifying those portions of the record which demonstrate
the absence of a genuine issue of material fact.
323 .

Catrett, All U.S. at
the burden

Once the moving party has met its initial burden,

then shifts to the nonmoving party who "must set forth specific facts
Anderson, All U.S.

showing that there is a genuine issue for trial."
at

250.

"Once

opposing

the

summary

burden

judgment

of

production

cannot

rest

has
on

so

its

shifted,

the

pleadings

or

It is not sufficient to

reassert the previous allegations.

party
merely
'simply

show that there is some metaphysical doubt as to the material facts.
Glover v.

LLC,

Speedway Super Am.

2003)(quoting Matsushita Elec.
U.S.

574,

586

assertion

(1986) .

that

a

fact

284 F. Supp. 2d 858,

Indus.

Co.

v.

862

(S.D.

Zenith Radio Corp.,

/ n

Ohio
475

Instead, the non-moving party must support the
is

genuinely

disputed.

Fed.

R.

Civ.

P.

56(c) (1) .
In ruling on a motion for summary judgment "[a] district court is
not

. . .

obligated to wade

through and search the entire record for

some specific facts that might support the nonmoving party's claim."
Glover, 284 F.Supp.
889 F. 2d 108,

111

2d at 862
(6th Cir.

(citing InteRoyal Corp.

1989)).

Instead,

v.

Sponseller,

a "court is entitled to

rely,

in determining whether a genuine issue of material fact exists

on

particular

a

pleadings,

issue,

depositions,

only

upon

answers

to

5

those

portions

of

the

verified

interrogatories and admissions on

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 6 of 12 PAGEID #: 964

file,

together with any affidavits submitted,

its attention by the parties."

specifically called to

Id. See also Fed. R. Civ. P. 56(c) (3) .

2. Retaliation Claim
Title VII of the Civil Rights Act of 1964, as amended, prohibits,
inter alia, the discharge of any individual "because of such
individual's race, color, religion, sex, or national origin." 42
U.S.C. § 2000e-2(a)(1). The Act also prohibits retaliation because an
individual "has made a charge, testified, assisted, or participated in
any manner in an investigation, proceedings, or hearing" under Title
VII. 42 U.S.C. § 2000e-3(a). Title VII does not prohibit
discrimination on the basis of age. It is the Age Discrimination in
Employment Act (hereinafter "ADEA"), 29 U.S.C. § 621 et seq., that is
the federal law prohibiting employment discrimination based on age,
see 29 U.S.C. § 623(a), and retaliation for having "participated in
any manner in an investigation, proceeding, or litigation under" the
ADEA. See 29 U.S.C. § 623(d). Ohio law, O.R.C. § 4112.02(A), is
broader than either Title VII or the ADEA in this regard. That state
statute prohibits discrimination on the basis of "race, color,
religion, sex, military status, national origin, disability, age, or
ancestry." O.R.C. § 4112.02(A). Ohio law also prohibits retaliation
for having "participated in any manner in any investigation,
proceeding, or hearing under" O.R.C. § 4112.01 et seq. O.R.C. §
4112.02(1) . As noted supra, the Amended Complaint asserts claims of
retaliatory termination "for making a Civil Rights violation complaint
to the EEOC/Ohio Civil Rights Commission" in violation of Title VII
and § 4112.02(1) . Amended Complaint, 51 15.

6

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 7 of 12 PAGEID #: 965

The Court previously referred all of plaintiff's state law claims
to arbitration and stayed only the Title VII retaliation claim.
Amended Opinion & Order, ECF No. 14. However, the arbitrator declined
- at plaintiff's request - to consider plaintiff's retaliation claim
under O.R.C. § 4112.02(1) so as to preserve plaintiff's retaliation
claim under Title VII for the Court's resolution. Arbitrator's
Decision, ECF No. 43-4, PagelD# 386-87. Plaintiff's Title VII
retaliation claim is therefore ripe for resolution by this Court.
A plaintiff claiming unlawful retaliation in violation of Title
VII must establish that his protected activity was the "but-for cause"
of the alleged adverse action by the employer. Univ. of Texas Sw. Med.
Ctr. v. Nassar, 570 U.S. 338, 360 (2013). Unless the plaintiff can
establish that the employer would not have taken the adverse
employment action but for its intention to retaliate, the claim will
fail.
A retaliation claim may be established either by direct evidence
of retaliation or by circumstantial evidence sufficient to give rise
to an inference of retaliation. Imwalle v. Reliance Med. Prods., Inc.,
515 F.3d 531, 538 (6th Cir. 2008). In the latter circumstance,
"[c]ourts analyzing retaliation claims apply the McDonnell Douglas
framework of shifting burdens of production and proof." Dixon V.
Gonzales, 481 F.3d 324, 333 (6th Cir. 2007)

(citing McDonnell Douglas

Corp. v. Green, 411 U.S. 792 (1973)). In order to establish a prima
facie claim of retaliation based on circumstantial evidence, a
plaintiff must prove (1) that he engaged in protected activity under
Title VII,

(2) that his exercise of protected rights was known to the

7

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 8 of 12 PAGEID #: 966

employer,

(3) that the employer thereafter took an adverse employment

action against the plaintiff, and (4) a causal connection exists
between the protected activity and the adverse employment action.
Morris v. Oldham Cnty. Fiscal Court,

201 F.3d 784, 792 (6th Cir. 2000).

If the plaintiff meets this initial burden, the burden of production
then shifts to the employer to articulate a legitimate, nonretaliatory reason for its actions. Id. at 793. At that point, it is
the plaintiff, who always bears the ultimate burden of persuasion, who
must prove that the protected activity was the but-for cause of the
adverse employment action.
Plaintiff offers no direct evidence of unlawful retaliation in
this action. GE contends that plaintiff cannot establish a prima facie
case of retaliation based on circumstantial evidence because, "at the
time of Plaintiff's termination, GE [] had no knowledge of him
contacting the EEOC." Defendant's Motion for Summary Judgment,

PagelD#

245. In any event, GE argues, plaintiff's deficient performance as an
employee provided a legitimate, non-retaliatory reason for the
termination of his employment.
Discussion
Plaintiff was hired by GE in January 2012 and began working in
February 2012. Arbitration Hearing Transcript (hereinafter "Tr. p.
") / p. 34.3 At the time, plaintiff was 64 years of age. Id. at p. 4.
Plaintiff had difficulty getting along with other engineers and even

3 Both sides have submitted excerpts of the arbitration transcript, Excerpts
from Arbitration Hearing Transcript, ECF Nos. 43-1, 43-2; Ref 1 Part 1

Ref

- 1 Part 4, ECF Nos. 46-1 - 46-4, although plaintiff's submission is the more
complete. The Court will refer to the page of the transcript, rather than to
the PagelD# number.

8

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 9 of 12 PAGEID #: 967

with his own supervisors, Kevin Klasing and Tim Stone. See, e.g.r Tr.
pp. 97, 188

199. On May 11, 2012, Stacey Marroso, a human resources

manager, advised plaintiff that Tim Stone had reported that plaintiff
was not "doing any work," was "asking too many questions in meetings,"
and was "not following the instructions of [his] supervisors." Tr. pp.
97, 203. On May 25, 2012, Kevin Klasing gave plaintiff a coaching plan
and a disciplinary warning signed by Klasing and Stone. EOF No. 46-5,
PagelD# 769-74; Tr. pp. 148, 208, 213. Plaintiff regarded the plan and
warning as "silly." Tr. p. 213. On June 1, 2012, plaintiff met with
Klasing, who gave plaintiff another set of notices regarding
deficiencies in plaintiff's performance. EOF No. 46-5, PagelD# 775-78;
Tr. p. 149-51. Later that same day, plaintiff complained to the
Federal Aviation Administration (hereinafter "FAA") about defects that
he perceived in the design of GE's engines and his perceived threat to
his employment. Tr. pp. 155, 208-09.4 Plaintiff also called the EEOC
with a complaint. Tr. p. 210. Plaintiff's employment with GE was
terminated on June 6, 2012. June 6, 2012 Letter to Plaintiff from
Stacey Morroso, EOF No. 46-5, PagelD# 812; Tr. p. 153. A written
complaint, apparently filed with the EEOC on June 11, 2012, alleged
discrimination based on color, religion, national origin, age, and
retaliation. Charge of Discrimination, ECF No. 43-5, PagelD# 396.
During the arbitration proceeding, plaintiff acknowledged that he
"didn't communicate to anyone at GE [] that [he] had contacted the
EEOC." Id. Specifically, plaintiff testified that he "didn't
communicate anything about national origin discrimination to anyone at

4 Plaintiff received no response from the FAA. Tr. p. 156.

9

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 10 of 12 PAG El D #: 968

GE [],

.

.

. about color.discrimination,.

.

.

[or] about religious

discrimination." Tr. pp. 210-11. However, plaintiff also testified
that he had told GE's human resource manager that a GE employee had
called plaintiff "old," Tr. p. 211. This apparently referred to a May
8, 2012, incident involving one Rob Athans, who introduced plaintiff
at a group presentation as "older than many of the people and so [he
has] more experience than many of the people there in the group." Tr.
p. 88. Plaintiff was offended by the reference to his age, and he so
advised Athans. May 8, 2012, Email to Rob Athans, ECF No. 46-5,
PagelD# 809.
GE contends that, because GE had no knowledge of plaintiff's
contact with the EEOC, it could not have retaliated against him
because of that contact. In his response, plaintiff continues to
emphasize his efforts to report and "rectify" GE's "unsafe product
design." Memo, in Opp., PagelD# 410. Of course, any such efforts
although relevant to plaintiff's public policy claim - are irrelevant
to his remaining claim of unlawful retaliation under Title VII.
Moreover, plaintiff appears to confuse unpleasant treatment in the
work-place with unlawful discrimination:
. . . the Plaintiff complained to the HR Man[a]ger about
Stone's direction to the plaintiff to behave like a
military person and obey the bosses. The HR manager did not
tell the plaintiff that Stone or management staff have
given similar directions/notices to other employees. This
demonstrates that the plaintiff was treated differently
than others, which amounts to discrimination.

10

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 11 of 12 PAGEID #: 969

Memo, in Opp., PagelD# 412. When plaintiff asserts that he reported
discriminatory actions to GE managers,5 it is therefore unclear whether
he is referring to discriminatory practices violative of Title VII. It
is true that plaintiff also asserts that he was discriminated against
by "some lower level management staff along with some employees"
because of his national origin and religious culture. Id. at PagelD#
412-13. However, the Amended Complaint asserts claims of unlawful
retaliation, not of underlying unlawful discrimination.
Plaintiff also refers to the May 8 incident during which Rob
Athans referred to him as "old;" plaintiff testified at the
arbitration proceeding that he reported this incident to GE's human
resources manager. There are two reasons why this incident is
insufficient to overcome the motion for summary judgment. First,
plaintiff's federal claim is based on Title VII, which does not
address age-related employment practices. The Amended Complaint makes
no mention of the ADEA and plaintiff will not be permitted to assert,
in his response to the motion for summary judgment, an entirely new
claim based on an entirely different federal statute.6 Second, the
Amended Complaint specifically alleges retaliation for having made a
"complaint to the EEOC/Ohio Civil Rights Commission." Id. at 5 15. The
claim asserted in the Amended Complaint and upon which GE has based
its defense in this action makes no reference to retaliation for
having made an internal complaint to GE's human resources manager.
Again, it would be unfair to GE to permit plaintiff to effectively
5 Plaintiff does not refer the Court to any exhibits documenting such reports.
6 The fact that the Equal Employment Opportunity Commission is authorized to
receive and investigate complaints under both Title VII and the ADEA does not
change this conclusion.

11

Case: 2:13-cv-00272-ALM-CMV Doc #: 55 Filed: 03/06/19 Page: 12 of 12 PAGEID #: 970

further amend the Amended Complaint in order to alter his entire
theory of recovery in response to GE's motion for summary judgment.
In short, the Court concludes that plaintiff has failed to
establish a prima facie case of retaliation under Title VII and that
GE is therefore entitled to summary judgment.
WHEREUPON Defendant's Motion for Summary judgment, ECF No. 43, is
GRANTED. The Clerk is DIRECTED to enter FINAL JUDGMENT for defendants.

______s/Algenon L. Marbley
Algenon L. Marbley
United States District Judge
DATED:

March 6, 2019

12

